1a
APPENDIX A
Supreme Court of Colorado
The People of the State of Colorado, Petitioner,
v.
Marcus Lee Robinson, Respondent.
Supreme Court Case No. 17SC823
December 9, 2019
Attorneys for Petitioner: Daniel May, District Attorney, Fourth Judicial District, Doyle Baker, Senior
Deputy District Attorney, Fourth Judicial District,
Jennifer Darby, Deputy District Attorney, Fourth
Judicial District, Colorado Springs, Colorado
Attorneys for Respondent: Megan A. Ring, Colorado
State Public Defender, Lynn Noesner, Deputy State
Public Defender, Denver, Colorado
JUSTICE GABRIEL delivered the Opinion of the
Court.
¶1 This case requires us to decide whether a court
of appeals division erred in concluding that a prosecutor’s race-based comments in her opening statement constituted reversible plain error. 1 We conclude that the prosecutor’s comments on the contrasting skin tones of defendant Marcus Lee Robinson and the victim were improper because any pro1

We granted certiorari to review the following issue:
Whether the court of appeals erred in concluding that the
prosecutor in a sexual assault trial committed plain error
when she commented in opening statement on a racebased fact (the contrasting skin tones of the accused and
the alleged victim) that was relevant to both an element
of the crime charged and a material fact in dispute.

2a
bative value that these comments might have had
was substantially outweighed by the danger of unfair prejudice to Robinson. We further conclude,
however, that, on the facts presented here, the prosecutor’s comments did not rise to the level of reversible plain error because even if obvious (an issue that
we need not decide), the error did not so undermine
the fundamental fairness of Robinson’s trial as to
cast serious doubt on the reliability of his judgment
of conviction.
¶2 Accordingly, we reverse the division’s judgment and remand for further proceedings consistent
with this opinion.
I. Facts and Procedural History
¶3 A.M. and her roommate hosted a gathering for
some co-workers in their apartment. A.M. drank
heavily and eventually passed out on a couch. E.G.,
one of the guests at the party, fell ill after the alcohol
that she drank reacted with a new medication that
she was taking, and she fell asleep at the other end
of the same couch on which A.M. had passed out.
¶4 Robinson arrived at the apartment later in the
evening, when things were winding down. According
to E.G., she woke to Robinson standing over her with
his exposed penis in her face. She told him to get
away from her, and he did. E.G. fell back asleep but
subsequently woke to some motion on the couch. She
then saw Robinson touching a still-unconscious
A.M.’s breasts and leg. E.G. yelled at Robinson to
leave A.M. alone and to get off of her, and he left the
room. E.G. fell asleep again, but she claims to have
been awakened a third time, this time by a “sexual
motion, like a grinding.” She allegedly saw Robinson
vaginally penetrating the still-incapacitated A.M.

3a
E.G. screamed at Robinson, and after he left the
apartment, she called 911 to report the sexual assault. Medical personnel arrived and attended to
A.M., whom they found unconscious and with her
leggings and underwear around her ankles. Ultimately, the medical personnel were able to rouse and
treat her.
¶5 Robinson was arrested, and he admitted to the
police that his initial intentions were to try to get
A.M. to have sex with him. He, however, denied any
sexual contact with her, claiming that she had said
“no” several times and that he understood that
“when you hear too many nos, that means no.” Robinson also denied any sexual contact with E.G.
¶6 The People subsequently charged Robinson
with multiple counts arising from the foregoing incidents. As to A.M., Robinson was charged with two
counts of sexual assault (victim helpless), two counts
of sexual assault (victim incapable), and two counts
of unlawful sexual contact (victim helpless). People v.
Robinson, 2017 COA 128M, ¶ 8, ––– P.3d ––––. As to
E.G., Robinson was charged with one count of attempted sexual assault (victim incapable), one count
of attempted sexual assault (victim helpless), and
one count of attempted unlawful sexual contact (victim helpless). Id.
¶7 The case proceeded to trial, and during voir
dire, defense counsel, who was apparently sensitive
to the underlying racial issues in this case (Robinson
is African American, and A.M. is white), inquired of
the prospective jurors whether there was anything
about the difference in the parties’ races that made
anyone uncomfortable. No one indicated any concern. Counsel then asked several of the prospective

4a
jurors whether they would be comfortable bringing
any improper discussion of race in the jury room to
the attention of the court. These jurors said that
they would, and one of them noted that he understood that he could not allow racial considerations to
influence him improperly.
¶8 Thereafter, during the prosecutor’s opening
statement, she described certain testimony that the
jury purportedly would hear, stating:
You’re going to hear that [A.M.] is white. And
she’s actually pretty pasty. She’s pasty white.
And you obviously have seen Mr. Robinson is
dark. He is an African American of dark complexion. [E.G.] looks over and she can see a
dark penis going into a white body. That’s how
graphic she could see [sic].
Defense counsel did not object to these comments,
and the trial court did not intervene sua sponte.
¶9 Later that day, E.G. took the stand and testified regarding her above-described allegations, including that when the medical personnel arrived,
they found A.M. unconscious and with her leggings
and underwear around her ankles (the prosecutor
also introduced into evidence a photograph showing
the condition in which the medical personnel had
found A.M.). As pertinent here, after E.G. noted that
A.M. was naked from the waist down, the prosecutor
asked E.G. how she could see that in the dark room.
E.G. responded, “[A.M.]—I hate to say it, but she’s
really, really white. So I could see that she was naked from the waist down.” The prosecutor then
asked E.G. what was going on at that point, and
E.G. responded, “He was inside of her. He was having sex with her.” Notwithstanding the fact that the

5a
prosecutor had thus presented evidence of penetration without any reference to Robinson’s race, the
prosecutor proceeded to ask E.G. about Robinson’s
race and complexion. In response, E.G. described
Robinson’s complexion as “dark” and noted that he,
too, was naked from the waist down and that she
could see his butt clearly. The prosecutor then asked
whether Robinson was “dark complected [sic]” at
that location of his body as well, and E.G. answered,
“Yes.” In contrast to what the prosecutor suggested
during her opening statement, however, E.G. did not
testify to seeing “a dark penis going into a white
body.”
¶10 The following day, the sexual assault nurse
examiner who had examined A.M. after the alleged
assault testified that she found no injuries to A.M.’s
genitalia, although she stated that this did not mean
that A.M. was not sexually assaulted. In addition, a
DNA analyst who had examined samples taken from
A.M., Robinson, and the scene of the alleged assault
testified that the test that she performed on the
couch cushion did not detect any seminal fluid and
that the amount of male DNA found on A.M.’s external genitalia was too small to allow her to draw any
conclusions.
¶11 The jury ultimately acquitted Robinson of all
of the charges related to E.G. and of all of the sexual
assault counts against A.M., which included all of
the counts that required proof of penetration. The
jury convicted Robinson, however, of two counts of
the lesser included offense of attempted sexual assault and two counts of unlawful sexual contact as to
A.M. The trial court sentenced Robinson under the
Sex Offender Lifetime Supervision Act to an indeterminate term of four years to life in the Depart-

6a
ment of Corrections, followed by ten years to life on
parole.
¶12 Robinson appealed, arguing, as pertinent
here, that the prosecutor committed misconduct
amounting to plain error when she made the abovequoted race-based comments during her opening
statement. Robinson, ¶ 11. In a published opinion,
the division agreed and unanimously reversed Robinson’s convictions, with Judge Furman specially
concurring. Id. at ¶¶ 47–68.
¶13 The division began by determining that the
prosecutor’s conduct was highly improper. Id. at ¶¶
13–25. In reaching this conclusion, the division observed that the prosecutor “did not articulate to the
jury any conceivably proper use of the race-based
statements” that she had made in her opening
statement. Id. at ¶ 17. The division further noted
that E.G. never testified that Robinson’s darker
complexion allowed her to see the assault. Id. at ¶
19. Rather, the only time that E.G. testified about
Robinson’s skin tone was in direct response to the
prosecutor’s questions about his race and complexion. Id. The division thus concluded that the prosecutor’s comments were improper. Id. at ¶ 25.
¶14 Having so determined, the division proceeded
to “the more difficult question” of whether the error
required reversal and concluded that it did. Id. at ¶¶
26–38. As pertinent here, the division deemed the
error obvious because, except in “extremely rare circumstances,” racially based statements are known to
be “totally off-limits” in all courts in the United
States. Id. at ¶ 27. The division further determined
that this obvious error cast serious doubt on the reliability of Robinson’s convictions because (1) the Su-

7a
preme Court has made clear that errors involving
racial discrimination must be treated with added
precaution, given that racial bias implicates unique
historical, constitutional, and institutional concerns;
(2) racial bias can be overt or more subtle, but overt
and subtle biases are equally prejudicial; (3) statements made early in a trial may carry disproportionate weight with the jury; and (4) comments that
appeal to racial prejudice fundamentally undermine
the principle of equal justice and therefore demand
that an appellate court set appropriate standards to
deter such conduct. Id. at ¶¶ 34–37. The division
concluded, “Only by reversing Robinson’s convictions
and giving him a new trial without racial taint can
we discharge this responsibility.” Id. at ¶ 38.
¶15 Judge Furman specially concurred. Id. at ¶¶
48–68 (Furman, J., specially concurring). He agreed
that Robinson’s convictions should be reversed but
wrote separately to ask this court to provide guidance on when, if ever, it is proper for evidence or argument related to race to be presented to a jury. Id.
at ¶ 48. Judge Furman discussed the equal protection and due process concerns attendant any time
racial considerations come into play in a criminal
proceeding, but he recognized that in some cases, racial evidence or argument may be relevant (e.g.,
when race is pertinent to proof of the perpetrator’s
identity or of a defendant’s motive for committing a
particular type of hate crime). Id. at ¶¶ 51 –52, 61.
¶16 The People petitioned this court to review the
division’s opinion, and we granted that petition.
II. Analysis
¶17 We begin by setting forth the appropriate analytical framework for a prosecutorial misconduct

8a
claim and the applicable standard of review. Applying this analytical framework, we consider whether
the prosecutor’s race-based comments were improper, and we conclude that they were because any probative value that they might have had was substantially outweighed by the danger of unfair prejudice
to Robinson. Finally, we assess whether this error,
which was unpreserved, was plain, and we conclude,
on the facts before us, that even if the error could be
deemed obvious (a matter that we need not decide),
the error did not substantially undermine the fundamental fairness of the trial so as to cast serious
doubt on the reliability of Robinson’s judgment of
conviction.
A. Analytical Framework and
Standard of Review
¶18 We engage in a two-step analysis to review
claims of prosecutorial misconduct. Wend v. People,
235 P.3d 1089, 1096 (Colo. 2010). First, we must determine whether the prosecutor’s conduct was improper “based on the totality of the circumstances.”
Id. If we conclude that the conduct was improper,
then we must decide whether such actions warrant
reversal according to the proper standard of review.
Id. Each step is analytically independent of the other. Id. Thus, we may conclude that a prosecutor’s
conduct was improper but nonetheless uphold the
trial court’s judgment because, for example, the error
was harmless. Id.
¶19 When, as here, a defendant did not object at
trial to the asserted misconduct, the plain error
standard of review applies. People v. Miller, 113 P.3d
743, 745 (Colo. 2005). Plain error addresses error
that was obvious and substantial and that so un-

9a
dermined the fundamental fairness of the trial itself
as to cast serious doubt on the reliability of the
judgment of conviction. Id. at 750. In the context of
plain error review of prosecutorial misconduct, we
will only reverse when the misconduct was “flagrantly, glaringly, or tremendously improper.” DomingoGomez v. People, 125 P.3d 1043, 1053 (Colo. 2005)
(quoting People v. Avila, 944 P.2d 673, 676 (Colo.
App. 1997)); cf. People v. Constant, 645 P.2d 843, 847
(Colo. 1982) (noting that prosecutorial misconduct in
closing argument rarely is so egregious as to constitute plain error).
B. The Race-Based Statements Were Improper
¶20 A prosecutor’s interest in a criminal prosecution is not in winning a case, but in ensuring that
justice is done. Berger v. United States, 295 U.S. 78,
88, 55 S.Ct. 629, 79 L.Ed. 1314 (1935). Accordingly, a
prosecutor must refrain from using improper methods calculated to produce a wrongful conviction.
Harris v. People, 888 P.2d 259, 263 (Colo. 1995). In
particular, a prosecutor may not use arguments “calculated to inflame the passions or prejudice of the
jury” or arguments that tend to influence jurors to
reach a verdict based on preexisting biases rather
than on the facts in evidence and the reasonable inferences to be drawn from those facts. People v. Dunlap, 975 P.2d 723, 758 (Colo. 1999).
¶21 Although all appeals to improper biases pose
challenges to the trial process, the Supreme Court
has observed that an appeal to racial bias should be
treated with “added precaution” because “racial bias
implicates unique historical, constitutional, and institutional concerns.” Peña-Rodriguez v. Colorado, –
–– U.S. ––––, 137 S. Ct. 855, 868–69, 197 L.Ed.2d

10a
107 (2017).
¶22 Here, in her opening statement, the prosecutor noted the victim’s “pasty white” skin tone, and
she emphasized twice how Robinson is an African
American of “dark” complexion. The prosecutor then
stated that the jury would hear evidence that E.G.
looked over and saw “a dark penis going into a white
body,” and she added, “That’s how graphic she could
see.” Although the prosecutor’s objective might have
been to highlight a percipient witness’s ability to see
what the witness claimed to see, the prosecutor never directly explained the possible relevance of these
race-based statements to the jury, nor did E.G. ultimately testify to the “graphic” image that the prosecutor painted for the jury.
¶23 Although the record here is insufficient to allow us to determine either what prompted the prosecutor to make these statements (e.g., the record does
not reveal whether E.G. had made such statements
prior to trial), or what the prosecutor hoped to
achieve by them, it is not difficult to discern that
when a prosecutor injects racial considerations into a
trial, the risk of unfair prejudice rises dramatically.
Indeed, the fact that racial considerations were introduced here, in the context of alleged sex crimes,
made the risk of prejudice particularly acute, given
the history of racial prejudice in this country. See
Miller v. North Carolina, 583 F.2d 701, 707 (4th Cir.
1978) (“Concern about fairness should be especially
acute where a prosecutor’s argument appeals to race
prejudice in the context of a sexual crime, for few
forms of prejudice are so virulent.”). Although in limited circumstances, the race of a defendant, victim,
or witness may be relevant, when a race-based argument “shifts its emphasis from evidence to emo-

11a
tion,” the statement is improper. United States v.
Doe, 903 F.2d 16, 25 (D.C. Cir. 1990). In our view,
even if the prosecutor’s statements here had some
evidentiary basis (and the record is insufficient to
allow us to draw a conclusion in that regard), any
probative value of these statements was substantially outweighed by the risks of unfair prejudice and
the perception of an appeal to racial prejudice and
stereotypes.
¶24 For several reasons, we are not persuaded
otherwise by the People’s assertion that the prosecutor’s comments were proper because evidence of penetration was relevant and material to the prosecution’s case in chief and that the prosecutor’s statements merely explained how E.G. was able to observe the penetration in a darkened room.
¶25 First, at no time did the prosecutor directly
explain that the contrast in skin tones between Robinson and A.M. was relevant to the issue of penetration, to how E.G. was able to see the penetration, or
to any other evidentiary consideration. Nor did
E.G.’s testimony suggest that it was. Indeed, E.G.
said nothing in her testimony about Robinson’s race
or the darkness of his skin until the prosecutor inquired directly about those attributes (and the prosecutor did not ask about Robinson’s race until after
E.G. had testified that she saw Robinson inside of
A.M., thereby making racial considerations irrelevant to the issue of penetration at that point).
¶26 Second, even if the prosecutor’s race-based
comments were premised on inferences drawn from
E.G.’s anticipated testimony, the probative value of
those comments was speculative at best and was
substantially outweighed by the danger of unfair

12a
prejudice to Robinson. 2
¶27 For these reasons, we conclude that the prosecutor’s race-based statements were unnecessary
and therefore were improper.
C. The Error Was Not Plain
¶28 Having concluded that the prosecutor’s racebased statements were erroneous, we next must decide whether the error was plain, which, as the division below observed, poses a more difficult question.
Determining whether the error here was plain requires us to decide whether the error was obvious
and substantial and whether it so undermined the
fundamental fairness of Robinson’s trial so as to cast
serious doubt on the reliability of his judgment of
conviction. People v. Miller, 113 P.3d at 750. We address these issues in turn.
¶29 The question of whether the impropriety of
the prosecutor’s conduct was obvious presents a close
question. On the one hand, an error is obvious when,
among other things, the challenged action contravenes a clear statutory command, a well-settled legal
principle, or Colorado case law. Scott v. People, 2017
CO 16, ¶ 16, 390 P.3d 832, 835. Here, the prosecutor’s repeated references to race arguably violated a
settled legal principle because courts have routinely
found error when a prosecutor has referred to the
defendant’s race when race was not a legitimate area
of inquiry and when the prosecutor repeatedly emWe note that in a case in which racial considerations might be
relevant and in which the relevance of such considerations is or
is likely to be disputed, the better practice would be for the parties to bring the issue to the court’s attention before trial to
avoid the unwarranted and potentially prejudicial injection of
race into the case.
2

13a
phasized the race of those involved. See, e.g., State v.
Rogan, 984 P.2d 1231, 1240 (Haw. 1999) (“In this
case, the deputy prosecutor’s reference to Rogan as a
‘black, military guy’ was clearly inflammatory inasmuch as it raised the issue of and cast attention to
Rogan’s race. Because there was no dispute as to the
identity of the perpetrator in this case, Rogan’s race
was not a legitimate area of inquiry inasmuch as
race was irrelevant to the determination of whether
Rogan committed the acts charged.”); Carter v. State,
241 P.3d 476, 480 (Wyo. 2010) (noting that the prosecutor’s repeated use of the terms “white guy” and
“black guy” met the first prong of the plain error
analysis).
¶30 On the other hand, “during opening statement, a prosecutor may refer to evidence that subsequently will be adduced at trial and draw inferences
from that evidence.” People v. Estes, 2012 COA 41, ¶
23, 296 P.3d 189, 194. Here, the prosecutor’s racebased comments were made in the context of suggesting to the jury what E.G. was apparently expected to say in her testimony. This testimony was
at least possibly relevant to two evidentiary points,
namely, (1) whether Robinson’s alleged assault on
A.M. included penetration and (2) how E.G. was able
to see such penetration in a darkened room. In these
circumstances, we can discern a reasonable argument that the impropriety of the prosecutor’s comments may not have been so obvious as to require
the trial court to intervene sua sponte. Indeed, such
an argument has particular force here, where the
comments were made in opening statement and defense counsel did not object, notwithstanding the fact
that during voir dire, she had made clear that she
was sensitive to the issues of race presented in this

14a
case. See People v. Rodriguez, 794 P.2d 965, 972 (Colo. 1990) (noting that the lack of a defense objection
to asserted prosecutorial misconduct might indicate
defense counsel’s belief that the live argument, despite its appearance in a cold record, was not overly
damaging).
¶31 We need not decide, however, whether the error at issue was obvious because even assuming, for
the sake of argument, that it was, on the facts of this
case, we cannot say that the error so undermined the
fundamental fairness of Robinson’s trial so as to cast
serious doubt on the reliability of his judgment of
conviction. We reach this conclusion for several reasons.
¶32 First, the trial judge instructed the jurors
that they were not to allow bias or prejudice of any
kind to influence their decisions in this case, and absent evidence to the contrary, we presume that the
jury followed this instruction. Bondsteel v. People,
2019 CO 26, ¶ 62, 439 P.3d 847, 856.
¶33 Second, we note that the jury acquitted Robinson of every charge to which the improper statements were directed (i.e., every charge requiring
proof of penetration). This indicates that the jury rejected the pertinent portions of E.G.’s testimony (and
the prosecutor’s assertions), and it tends to show
that the jurors heeded the court’s instruction not to
allow bias or prejudice to influence their decisions.
In addition, the fact that the jury acquitted Robinson
of every charge to which the improper statements
were directed tends to show that the jury could fairly
and properly weigh and evaluate the evidence, notwithstanding the prosecutor’s race-based comments.
See People v. Braley, 879 P.2d 410, 414–15 (Colo.

15a
App. 1993) (noting that the fact that the jury acquitted the defendant of the charges for which allegedly
improper evidence was offered indicates that the jury could fairly and properly weigh that evidence).
¶34 Accordingly, we conclude that the prosecutor’s
unnecessary and therefore improper race-based
comments did not rise to the level of plain error.
III. Conclusion
¶35 The prosecutor’s race-based comments in her
opening statement were improper because any probative value that they might have had was substantially outweighed by the danger of unfair prejudice
to Robinson. We caution parties in future cases
against injecting race into a case in which it is not a
legitimate issue, and we reiterate our view that in a
case in which racial considerations might be relevant
and in which the relevance of such considerations is
or is likely to be disputed, the better practice would
be for the parties to bring the issue to the court’s attention before trial to avoid the unwarranted and potentially prejudicial injection of race into the case.
On the facts presented here, however, where, among
other things, Robinson was acquitted of every count
to which the prosecutor’s improper comments were
directed, we cannot say that those comments so undermined the fundamental fairness of Robinson’s
trial as to cast serious doubt on the reliability of his
judgment of conviction.
¶36 Accordingly, we reverse the division’s judgment and remand this case for further proceedings
consistent with this opinion.

16a
APPENDIX B
Colorado Court of Appeals,
Div. VI
The People of the State of Colorado, PlaintiffAppellee,
v.
Marcus Lee Robinson, Defendant-Appellant.
Court of Appeals No. 14CA1795
Announced October 19, 2017
As Modified November 2017
El Paso County District Court No. 13CR4158, Honorable Barney Iuppa, Judge
Cynthia H. Coffman, Attorney General, John T. Lee,
Assistant Attorney General, Denver, Colorado, for
Plaintiff-Appellee
Douglas K. Wilson, Colorado State Public Defender,
Lynn Noesner, Deputy State Public Defender, Denver, Colorado, for Defendant-Appellant
Opinion by JUDGE BERGER
¶ 1 During opening statement in this criminal
prosecution charging defendant, Marcus Lee Robinson, with multiple counts of sexual assault, attempted sexual assault, and unlawful sexual contact, the
prosecutor told the jury:
You’re going to hear that [one of the victims,
A.M.,] is white. And she’s actually pretty pasty.
She’s pasty white. And you obviously have seen
Mr. Robinson is dark. He is an African American of dark complexion. [The other victim,
E.G.,] looks over and she can see a dark penis
going into a white body. That’s how graphic she
could see [sic].

17a
¶ 2 Defense counsel did not object, and the trial
court did not interrupt the proceedings to either admonish the prosecutor or instruct the jury to disregard the prosecutor’s statements.
¶ 3 Viewed objectively, the prosecutor’s statements could have been reasonably understood by the
jury as an appeal to racial prejudice that raises a
substantial question whether Robinson received a
trial free from the taint of racial prejudice. 1 Only by
reversing Robinson’s convictions can we ensure that
racial prejudice plays no part in the adjudication of
this case. Accordingly, we reverse Robinson’s convictions and remand for a new trial. Because they are
likely to arise on retrial, we also address Robinson’s
other contentions of prosecutorial misconduct. 2
I. Relevant Facts and Procedural History
¶ 4 A.M. and her roommate hosted a party at
In deciding this case we assume both that the prosecutor acted in good faith and that the prosecutor does not harbor any
racial animus. We recognize that it is possible that the last,
unintelligible, sentence of the quoted portion of the prosecutor’s
opening statement was an ineffective attempt to explain why
she was making what otherwise were inappropriate racially
based statements. The prosecutor’s subjective intent is irrelevant. We view the prosecutor’s words objectively, and analyze
whether such words, regardless of the intent, are inconsistent
with Robinson’s right to a fair trial, free from racially charged
words and concepts. Wend v. People, 235 P.3d 1089, 1099 (Colo.
2010) (holding that improper statements made by a prosecutor,
regardless of intent, can affect the jury’s impartiality, thus corrupting the fundamental fairness of the trial).
2 In view of our disposition, we do not address Robinson’s assertion that the Colorado Sex Offender Lifetime Supervision Act of
1998 (SOLSA), §§ 18-1.3-1001 to -1012, C.R.S. 2017, under
which he was sentenced, is unconstitutional, or that the mittimus incorrectly reflects the crimes of which he was convicted.
1

18a
their apartment. A.M. drank a lot of alcohol and
eventually passed out on a couch. E.G. also attended
the party and she became ill after the alcohol she
drank reacted with her prescription medication. E.G.
fell sleep on the same couch on which A.M. had
passed out.
¶ 5 Robinson, who was in an intimate relationship
with A.M.’s roommate, arrived at the apartment late
in the night, when the party was winding down. E.G.
testified that Robinson woke her by straddling her
head and putting his exposed penis in her face. She
told him to go away and he did, at least for a time.
E.G. wakened again to see Robinson rubbing A.M.’s
thighs and breasts (A.M. remained asleep or unconscious) and again told him to go away. She was
awakened a third time when, she testified, she saw
Robinson vaginally penetrating the still sleeping or
unconscious A.M. E.G. told the jury that she yelled
at Robinson and he left the apartment. E.G. called
911 to report the sexual assault and medical personnel were dispatched to attend to A.M., who ultimately was revived.
¶ 6 After Robinson left, he sent A.M.’s roommate a
text message, admitted at trial, that said, “That girl
was curse n out me I must did something if dig
dumthg ribg I’m sorry so lft don’t knie I’m s [sic].”
Robinson explained to the police that “he knew he
was in the wrong for trying to have sex with [A.M.]”
because he was in a relationship with her roommate.
¶ 7 While Robinson admitted to the police that he
asked A.M. to have sex with him, he denied any sexual contact with her, claiming that he left her alone
after she repeatedly declined his requests. Robinson
also denied any sexual contact with E.G.

19a
¶ 8 As to A.M., Robinson was charged with two
counts of sexual assault (victim helpless); two counts
of sexual assault (victim incapable); and two counts
of unlawful sexual contact (victim helpless). As to
E.G., Robinson was charged with one count of attempted sexual assault (victim incapable); one count
of attempted sexual assault (victim helpless); and
one count of attempted unlawful sexual contact (victim helpless).
¶ 9 At trial, the nurse who examined A.M. testified that she had no injuries to her internal or external genitalia. A DNA expert also testified that the
trace amount of male DNA found on A.M.’s external
genitalia was too small of a sample to be matched to
any individual, including Robinson.
¶ 10 The jury acquitted Robinson of all of the
charges related to E.G. It acquitted Robinson of the
completed crimes of sexual assault against A.M.,
thus rejecting, at least in part, E.G.’s testimony, but
convicted him of two counts of unlawful sexual contact and two counts of the lesser included offense of
attempted sexual assault. The trial court sentenced
Robinson under the Sex Offender Lifetime Supervision Act to four years to life imprisonment.
II. Analysis of the Prosecutor’s Raced-Based Statements During Opening Statement
¶ 11 Robinson argues that the prosecutor’s description of “a dark penis going into a white body”
during opening statement constituted prosecutorial
misconduct amounting to plain error, requiring reversal of his convictions. We agree.
¶ 12 We engage in a two-step analysis to review
claims of prosecutorial misconduct. Wend v. People,
235 P.3d 1089, 1096 (Colo. 2010). First, we deter-

20a
mine whether the prosecutor’s conduct was improper
“based on the totality of the circumstances.” Id. If we
conclude that the conduct was improper, we then determine whether it warrants reversal according to
the proper standard of review. Id.
A. The Prosecutor’s Opening Statement Was Flagrantly, Glaringly, and Tremendously Improper
¶ 13 “A prosecutor has the responsibility of a minister of justice and not simply that of an advocate.”
Colo. RPC 3.8 cmt. 1. More than eighty years ago,
the United States Supreme Court explained that a
prosecutor’s interest in a criminal prosecution “is not
that [she] shall win a case, but that justice shall be
done.” Berger v. United States, 295 U.S. 78, 88, 55
S.Ct. 629, 79 L.Ed. 1314 (1935).
¶ 14 In executing her substantial powers, a prosecutor must refrain from improper methods calculated to produce a wrongful conviction. Harris v. People,
888 P.2d 259, 263 (Colo. 1995). This constraint protects a defendant’s right to be tried by a fair and impartial jury “empaneled to determine the issues solely on the basis of the evidence introduced at trial rather than on the basis of bias or prejudice for or
against a party.” Id. at 264; see U.S. Const. amend.
VI; Colo. Const. art. II, § 16.
¶ 15 Prosecutorial remarks that evoke any kind of
bias or prejudice are always improper; “such argument clearly trespasses the bounds of reasonable inference or fair comment on the evidence.” Harris,
888 P.2d at 265 (quoting ABA Standards for Criminal Justice: Prosecution Function and Defense Function § 3-5.8 cmt. (3d ed. 1993)); see also People v.
Dunlap, 975 P.2d 723, 758 (Colo. 1999).
¶ 16 A prosecutor’s appeal to racial stereotypes or

21a
racial bias to achieve a conviction is especially deplorable and gravely violates a defendant’s right to
due process of law. Harris, 888 P.2d at 264; see U.S.
Const. amends. V, VI, XIV, § 1; Colo. Const. art. II,
§§ 16, 25; see also Batson v. Kentucky, 476 U.S. 79,
106 S.Ct. 1712, 90 L.Ed.2d 69 (1986); Miller v. North
Carolina, 583 F.2d 701, 703 (4th Cir. 1978); State v.
Monday, 171 Wash.2d 667, 257 P.3d 551, 556 (2011).
¶ 17 The prosecutor did not articulate to the jury
any conceivably proper use of the race-based statements. Thus, irrespective of whether a different record might justify such statements, this record does
not permit such a conclusion. Instead, viewed objectively, the prosecutor’s opening statement, by its
words and in the context it was presented to the jury, was an appeal to racial prejudice. Indeed, the
prosecutor’s words invoked some of the most damaging historical racial stereotypes—stereotypes that
have infected judicial proceedings in this country for
generations. See, e.g., Loving v. Virginia, 388 U.S. 1,
3, 7, 87 S.Ct. 1817, 18 L.Ed.2d 1010 (1967) (rejecting
the trial judge’s assertion that “Almighty God created the races white, black, yellow, malay and red, and
he placed them on separate continents ... [t]he fact
that he separated the races shows that he did not
intend for the races to mix”).
¶ 18 To be sure, in limited instances the race of
the defendant, the victim, or a witness may be relevant to the issues presented. “An unembellished reference to evidence of race simply as a factor bolstering an eyewitness identification of a culprit, for example, poses no threat to purity of the trial.” United
States v. Doe, 903 F.2d 16, 25 (D.C. Cir. 1990). “The
line of demarcation is crossed, however, when the
argument shifts its emphasis from evidence to emo-

22a
tion.” Id. This principle is especially pronounced
when, as here, a prosecutor’s argument objectively
appeals to racial prejudice in the context of a sexual
crime, “for few forms of prejudice are so virulent.”
Miller, 583 F.2d at 707.
¶ 19 The Attorney General points out that on direct examination, E.G. testified that she was able to
see A.M. in the dimly lit room because of A.M.’s light
complexion. But E.G. never testified that Robinson’s
darker complexion aided her ability to see what was
happening. To the contrary, the only time that E.G.
testified about Robinson’s skin tone was in direct response to the prosecutor’s questions about Robinson’s race and complexion:
PROSECUTOR: How could you see that [A.M.
was naked from the waist down]?
E.G.: Because it was a dark room and [A.M.]—I
hate to say it, but she’s really, really white. So I
could see that she was naked from the waist
down.
Q: What was going on at that point?
A: He was inside of her. He was having sex
with her.
Q: How do you know he was inside of her?
A: Because I could see it. I could see it from my
angle. He was in the process of having sex with
her. And then he realized that I woke up. And
he looks over to me as he’s penetrating her[.]
....
Q: You said he was penetrating her. How was
Mr. Robinson dressed at this point?
A: Um, at this point by the third incident he
was actually—he was naked from the waist

23a
down. That I do remember. I can’t remember if
he was wearing a shirt or not. But he was naked from the waist down because he had to run
and get pants.
Q: What race is Mr. Robinson?
A: He’s African American.
Q: And how would you describe his complexion?
A: It’s dark.
Q: Could you see his penis?
A: Like if I had to draw a picture of it, no. But
the fact that I saw him from the waist down
and he was naked from the waist down and
when he took off, I could see his butt clearly.
Q: And is he dark complected at that location on
his body as well?
A: Yes.
(Emphasis added.)
¶ 20 The prosecutor drew no connection between
this examination (or her opening statement) and any
proper purpose for the use of the raced-based statements. Instead, the quoted colloquy regarding the
defendant’s race and skin tone was entirely gratuitous given that the defendant was in the courtroom
during the trial. Never did the prosecutor explain
why Robinson and A.M.’s different skin tones aided
E.G.’s visual perception or were otherwise a proper
consideration.
¶ 21 State v. Blanks, 479 N.W.2d 601 (Iowa Ct.
App. 1991), is instructive. There, the defendant
(who, like Robinson, was African-American) was
charged with multiple crimes stemming from a violent argument he had with his white girlfriend. During arguments to the jury, the prosecutor referred to

24a
Gorillas in the Mist (Universal Pictures 1988), a
movie about the behavior of gorillas. Id. at 602. The
prosecutor later asserted that he was merely trying
to suggest that humans, unlike gorillas, must be
subject to a rule of law. Id.
¶ 22 The Iowa Court of Appeals concluded that
the prosecutor’s reference to the movie, in which a
“young white woman stands alone against ... black
African hunters ... [who] violently murder her,” improperly injected racial overtones into the trial. Id.
at 604-05. The court held that despite the prosecutor’s “good faith intentions and what he claims to be
an innocent remark, there is the prejudicial possibility that from the jury’s standpoint an attempt was
made to compare the behavior of the defendant with
that of apes and gorillas.” Id. at 605. It concluded
that it was the effect, not the intent, of the prosecutor’s comments that unfairly prejudiced the defendant. Id.
¶ 23 In our view, Robinson’s prosecutor’s statements were comparable to the prosecutor’s conduct
in Blanks. In the context of a sexual assault case, the
prosecutor’s graphic description of “a dark penis going into a white body” posed an unacceptable risk of
poisoning the jury based on racial prejudice.
¶ 24 This nation is burdened with a tragic history
of punishing black men for sexual crimes against
white women much more severely than white men
who committed the same crimes. See Jeffrey J. Pokorak, Rape as a Badge of Slavery: The Legal History
of, and Remedies for, Prosecutorial Race-of-Victim
Charging Disparities, 7 Nev. L.J. 1, 25 (2006). The
prosecutor’s statements echoed a time when judges
instructed juries that “they should presume no

25a
White woman in Alabama would consent to sex with
a Black.” Id. at 25 n.128; see also Pumphrey v. State,
156 Ala. 103, 47 So. 156, 158 (1908) (holding that in
determining whether an assault was made with intent to rape, the jury may consider that the woman
assaulted was white and that the accused was black,
a now defunct rule applied as recently as 1953 in
McQuirter v. State, 36 Ala.App. 707, 63 So.2d 388,
390 (1953)).
¶ 25 Against this sobering historical backdrop, we
conclude that the prosecutor’s conduct was not only
improper, but “flagrantly, glaringly, [and] tremendously improper.” Domingo-Gomez v. People, 125
P.3d 1043, 1053 (Colo. 2005) (quoting People v. Avila,
944 P.2d 673, 676 (Colo. App. 1997)).
B. Reversal is Required
¶ 26 The more difficult question in this case is
whether the prosecutor’s statements and questions
require reversal. Because Robinson did not object,
we review only for plain error. Reversal is required if
the misconduct was obvious and “so undermined the
fundamental fairness of the trial itself as to cast serious doubt on the reliability of the judgment of conviction.” Wilson v. People, 743 P.2d 415, 420 (Colo.
1987).
¶ 27 We first conclude that the impropriety of the
statements, given their lack of context that arguably
might, under very unusual circumstances, have justified such race-based statements, was obvious. Hagos v. People, 2012 CO 63, ¶ 18, 288 P.3d 116. Except
under extremely rare circumstances, such racially
based statements are, and have been for years, totally off-limits in all courts in the United States. See
generally Debra T. Landis, Annotation, Prosecutor’s

26a
Appeal in Criminal Case to Racial, National, or Religious Prejudice as Ground for Mistrial, New Trial,
Reversal, or Vacation of Sentence—Modern Cases, 70
A.L.R. 4th 664 (1989) (collecting and analyzing cases
determining whether racial statements made by a
prosecutor require reversal). The only remaining
question is whether the statements cast serious
doubt on the reliability of Robinson’s convictions.
¶ 28 We agree with the Attorney General that
several circumstances may have mitigated the impact of the prosecutor’s statements. First, “[a] passing reference in opening statements ... may not be
prejudicial in the context of a lengthy trial,” People v.
Rios, 2014 COA 90, ¶ 35, 338 P.3d 495, and here the
prosecutor’s statements were brief and not repeated
(although, as noted above, the prosecutor’s direct examination of E.G. also addressed race). But Robinson’s trial was not lengthy: excluding voir dire of the
prospective jurors and deliberations, it lasted less
than two days.
¶ 29 Second, courts recognize that a failure to object may demonstrate defense counsel’s belief that
the statement was not overly damaging. People v.
Rodriguez, 794 P.2d 965, 972 (Colo. 1990).
¶ 30 Third, we acknowledge that the trial court
instructed the jury “not to allow bias or prejudice,
including gender bias, or any kind of prejudice based
upon gender” to influence its decisions, and “[w]e
presume that the jury followed the court’s instructions, absent evidence to the contrary.” People v.
Garcia, 2012 COA 79, ¶ 20, 296 P.3d 285. But other
than the standard instruction on bias or prejudice
(which focused on gender discrimination rather than
racial discrimination), the trial court never admon-

27a
ished the prosecutor or instructed the jury to disregard the offending statements.
¶ 31 Fourth, the fact that the jury acquitted Robinson of all of the charges related to E.G. and the
most serious charges related to A.M. suggests that it
could fairly and properly weigh and evaluate the evidence without considering extraneous factors. People v. Braley, 879 P.2d 410, 414-15 (Colo. App. 1993).
But this does not foreclose the possibility that racial
animus nevertheless played a role in the jury’s decision finding Robinson guilty of other serious sex
crimes, particularly when the evidence of guilt in
this case was not overwhelming. See People v. Estes,
2012 COA 41, ¶¶ 39, 42, 296 P.3d 189 (holding that
prosecutorial misconduct in closing argument did not
warrant reversal because, among other things,
overwhelming evidence supported the guilty verdict).
¶ 32 We observe that when the jury acquitted
Robinson of all of the alleged completed sex offenses
against A.M., the jury necessarily rejected the most
damaging portions of E.G.’s testimony—that she observed Robinson penetrating A.M. We do not know
why the jury then convicted Robinson of attempted,
not completed, sex offenses against A.M. This disconnect does not provide comfort that the jury’s verdict was completely free of racial bias.
¶ 33 Notwithstanding the mitigating factors presented by the Attorney General, we conclude that
the prosecutor’s conduct requires reversal for four
reasons.
¶ 34 First, earlier this year, the United States Supreme Court again instructed the lower courts that
we must treat errors implicating racial discrimination “with added precaution.” Pena-Rodriguez v. Col-

28a
orado, 580 U.S. ––––, ––––, 137 S.Ct. 855, 869, 197
L.Ed.2d 107 (2017). “[R]acial bias implicates unique
historical, constitutional, and institutional concerns.” Id. at ––––, 137 S.Ct. at 868 (emphasis added).
¶ 35 Second, we are mindful that racial bias operates on multiple levels. The juror’s statements in
Pena-Rodriguez typify overt racial prejudice. But racial prejudice can be much more subtle and equally
prejudicial. See, e.g., State v. Kirk, 157 Idaho 809,
339 P.3d 1213, 1216 (Ct. App. 2014) (“An invocation
of race by a prosecutor, even if subtle and oblique,
may be violative of due process or equal protection.”);
State v. Cabrera, 700 N.W.2d 469, 475 (Minn. 2005)
(“Bias often surfaces indirectly or inadvertently and
can be difficult to detect. ... Affirming this conviction
would undermine our strong commitment to rooting
out bias, no matter how subtle, indirect, or veiled.”).
¶ 36 Third, we also recognize, as have numerous
scientists and academics, that principles of primacy
may cause statements and arguments made early in
a trial to have a disproportionately influential
weight. See, e.g., L. Timothy Perrin, From O.J. to
McVeigh: The Use of Argument in the Opening
Statement, 48 Emory L.J. 107, 124 (1999); see also
John B. Mitchell, Why Should the Prosecutor Get the
Last Word?, 27 Am. J. Crim. L. 139, 157-58 (2000)
(discussing primacy studies in the trial context, including one that concluded that some eighty percent
of jurors make up their minds on civil liability after
opening statement).
¶ 37 Finally, in view of the unique concerns attendant to a prosecutor’s appeal to racial prejudice,
we agree with the Washington Supreme Court’s con-

29a
clusion that a comment such as the one at issue here
“fundamentally undermines the principle of equal
justice and is so repugnant to the concept of an impartial trial its very existence demands that appellate courts set appropriate standards to deter such
conduct.” Monday, 257 P.3d at 557-58. 3
¶ 38 Although under the circumstances presented
we cannot know with certainty what impact, if any,
the prosecutor’s conduct actually had on the jury, see
Pena-Rodriguez, 580 U.S. at ––––, 137 S.Ct. at 866;
People v. Juarez, 271 P.3d 537, 544 (Colo. App.
2011); see also CRE 606(b), the risk that Robinson
did not receive a fair trial by unbiased jurors simply
is too great to ignore. It is the responsibility of courts
“to purge racial prejudice from the administration of
justice.” Pena-Rodriguez, 580 U.S. at ––––, 137 S.Ct.
at 867. Only by reversing Robinson’s convictions and
giving him a new trial without racial taint can we
discharge this responsibility.
III. Evidence Regarding Robinson’s Infidelity
¶ 39 To provide guidance on retrial, Kaufman v.
People, 202 P.3d 542, 546 (Colo. 2009), we briefly address Robinson’s argument that the prosecutor engaged in misconduct when she implied that Robinson
was unfaithful to his girlfriend.
¶ 40 As noted above, at the time of the alleged
sexual assaults, Robinson was in an intimate relaWhile it may be tempting to characterize this type of prosecutorial misconduct as structural error, we resist the temptation,
partly because no court has found that even blatantly racially
biased statements constitute structural error, but also because
we simply cannot discern where the line would be drawn between such structural error and other improper and prejudicial
prosecutorial statements.
3

30a
tionship with A.M.’s roommate. Robinson was also
living with still another woman at that time.
¶ 41 During direct examination of one of the investigating officers, the prosecutor proved that Robinson sent a text message apology to A.M.’s roommate after the alleged sexual assaults. The prosecutor then attempted to ask the officer about Robinson’s relationship with the woman with whom he
lived. She asked, “Did you later learn from [the
woman] that she thought it was—.” Before any answer was given, Robinson objected, and the trial
court sustained his objection.
¶ 42 During closing, Robinson argued that his text
message apology was merely an admission that had
acted improperly (but not criminally) when he attempted to have consensual sex with A.M. at a time
when he was supposed to be with A.M.’s roommate.
¶ 43 In rebuttal closing, the prosecutor argued:
“Vague, speculative, imaginary. Mr. Robinson’s apologizing for trying to cheat on [the roommate]. That is
why is he apologizing? You heard he lives with another woman.” Robinson objected, and the trial court
overruled his objection. The prosecutor went on to
say,
He shares an apartment with [the woman]. He
drives [her] car. And he’s coming over to [A.M.’s
roommate’s] house at a quarter to 4:00 in the
morning? He is not worried about what [her
roommate] is thinking. He is [doing] exactly
what he told you he was doing, getting some
ass. And I am apologizing for using the crass
words, but those were his words, not mine.
¶ 44 Robinson asserts that the prosecutor’s statements insinuated that he was in an intimate rela-

31a
tionship with and cheating on the woman he lived
with, and that this insinuation was irrelevant and
unfairly prejudicial.
¶ 45 The prosecutor never stated that Robinson
was in an intimate relationship with the woman he
lived with because Robinson’s timely objection prevented her from doing so. As for the reasons for Robinson’s apology, “[p]rosecutors may comment on the
evidence admitted at trial and the reasonable inferences that can be drawn therefrom.” People v.
McMinn, 2013 COA 94, ¶ 61, ––– P.3d ––––. The
prosecutor’s argument that Robinson’s text message
to A.M.’s roommate was an apology for sexually assaulting A.M., not merely for requesting sex from
A.M., was a fair response to Robinson’s characterization of the text message apology. People v. Richardson, 58 P.3d 1039, 1046-47 (Colo. App. 2002).
¶ 46 However, we agree that the nature of Robinson’s relationship with the woman with whom he
lived, and whether he might have been unfaithful to
her, was irrelevant. The woman had nothing whatsoever to do with the charges in this case. The trial
court apparently recognized this because it sustained an objection to such evidence during the testimony portion of the trial. The prosecutor should
not have insinuated that Robinson was being unfaithful to the woman, especially after the trial court
sustained the objection. On retrial, the trial court,
upon proper objection, should limit testimony and
argument to that logically related to Robinson’s
apology.
IV. Conclusion
¶ 47 The judgment of conviction is reversed, and the
case is remanded for a new trial.

32a
JUDGE HARRIS concurs.
JUDGE FURMAN specially concurs.
JUDGE FURMAN, specially concurring.
¶ 48 Racial prejudice has no place in our criminal
justice system. Racial evidence or argument might
have a place in proper context, though. The question
in this case is when can parties introduce evidence
or argument related to race without inviting racial
prejudice. I agree with the majority that the judgment should be reversed and the case remanded
with directions. I write separately, however, because
it is my hope that should the supreme court review
this case, it will give guidance on when, if ever, it is
proper for evidence or argument related to race to be
presented to the jury.
¶ 49 Both sides seem to agree that some circumstances, such as identification, evidence of race
might be relevant and serve a legitimate purpose.
The prosecution contends that such a purpose was
present in this case, while Robinson contends that
“there was no need or legitimate reason for the prosecution to highlight Mr. Robinson’s race.” I agree
with Robinson.
I. Racial Evidence or Argument Can Be Prejudicial
¶ 50 Among the most vital precepts of American
law are equal protection and due process. Evidence
or argument that improperly injects race into a trial
risks denying a defendant both. As Justice Sotomayor recently noted, such evidence or argument
is “an affront to the Constitution’s guarantee of
equal protection of the laws. And by threatening to
cultivate bias in the jury, it equally offends the de-

33a
fendant’s right to an impartial jury.” Calhoun v.
United States, 568 U.S. 1206, 1206, 133 S.Ct. 1136,
185 L.Ed.2d 385 (2013) (Sotomayor, J., respecting
denial of certiorari).
¶ 51 The eradication of racial considerations from
criminal proceedings is one of the animating purposes of the Equal Protection Clause of the Fourteenth
Amendment. Miller v. North Carolina, 583 F.2d 701,
707 (4th Cir. 1978). Our law demands that people be
punished for what they do, not who they are. Buck v.
Davis, 580 U.S. ––––, ––––, 137 S.Ct. 759, 778, 197
L.Ed.2d 1 (2017); Rose v. Mitchell, 443 U.S. 545, 555,
99 S.Ct. 2993, 61 L.Ed.2d 739 (1979) (“Discrimination on the basis of race, odious in all aspects, is especially pernicious in the administration of justice.”).
¶ 52 Regarding due process, the jury is a criminal
defendant’s fundamental “protection of life and liberty against race or color prejudice.” McCleskey v.
Kemp, 481 U.S. 279, 310, 107 S.Ct. 1756, 95 L.Ed.2d
262 (1987) (quoting Strauder v. West Virginia, 100
U.S. 303, 309, 25 L.Ed. 664 (1880)). The right to a
trial by a fair and impartial jury guaranteed by both
the United States Constitution and article II, sections 16 and 23, of the Colorado Constitution implies
a verdict free from the admission of evidence or argument that arouses the prejudices of the jury. Harris v. People, 888 P.2d 259, 263-64 (Colo. 1995).
¶ 53 Evidence or argument related to race might
provoke prejudices in the jury. Thus, a jury that has
been misled by inadmissible argument or evidence
cannot be considered impartial. Id. at 264. Regardless of whether the prosecutor’s appeal to prejudice
was subtle or unintended, we cannot ignore “that
references to race not intended to provoke prejudice

34a
may nevertheless do so.” Sheri Lynn Johnson, Racial
Imagery in Criminal Cases, 67 Tul. L. Rev. 1739,
1778 (1993).
¶ 54 But knowing the magnitude of the impact
that evidence or argument related to race could have
on the jury is impossible. As the United States Supreme Court recently explained, “the impact of [racerelated] evidence cannot be measured simply by how
much air time it received at trial or how many pages
it occupies in the record. Some toxins can be deadly
in small doses.” Buck, 580 U.S. at ––––, 137 S.Ct. at
777.
¶ 55 In this case, the prosecutor’s remarks were
particularly troubling because they echoed our country’s history of prejudice toward black men, particularly those accused of victimizing white women. See
Loving v. Virginia, 388 U.S. 1, 7, 87 S.Ct. 1817, 18
L.Ed.2d 1010 (1967) (noting the State’s reliance on
white supremacist doctrines to justify statutes preventing interracial marriage); see also Miller, 583
F.2d at 708 (where the prosecutor argued that a
white woman would never consent to sexual relations with a black man).
¶ 56 The seemingly illogical verdict in this case is
also troubling. E.G.’s testimony represented a large
portion of the evidence against Robinson. Given that
A.M. was unconscious at the time, E.G. was the only
eyewitness to Robinson’s acts against her and A.M.
Yet, the jury, by acquitting on the sexual assault
charges and the charges regarding E.G., apparently
did not believe much of E.G.’s testimony. It nonetheless found Robinson guilty of attempted sexual assault (two counts) and unlawful sexual contact (two
counts) against A.M. This outcome begs the ques-

35a
tion—was this a compromise verdict? And if so, was
it poisoned by racial prejudice.
II. Racial Evidence or Argument Can Be Relevant
¶ 57 Even so, I understand the State’s position—
evidence or argument related to race is sometimes
relevant, even necessary, evidence. The State, quoting United States v. Doe, 903 F.2d 16, 25 (D.C. Cir.
1990), contends that “the impropriety of racially biased comments only extends to ‘comments beyond
the pale of legally acceptable modes of proof,’” and
that “[a]n unembellished reference to evidence of
race ... poses no threat to purity of the trial.”
¶ 58 Giving the prosecutor the benefit of the
doubt, Robinson’s skin color, or rather the contrast
between his and A.M.’s skin colors, might have been
relevant to bolster E.G.’s testimony. Perhaps this
explains why Robinson did not object and the district
court judge did not interrupt during opening statement. But, when E.G. described how she was able to
see that Robinson was penetrating A.M., she made
no mention of Robinson’s race, skin color, or any contrast between them.
¶ 59 Then, for no proper purpose that I can identify, the prosecutor directly asked E.G. about Robinson’s race and complexion. At that point, any potential relevance of Robinson’s race had dissipated. This
was not an identity case. A.M. knew Robinson, and
Robinson admitted being there. And, E.G. did not
point to Robinson’s race as aiding her ability to view
the act of penetration in any way.
¶ 60 Instead, the prosecutor’s questioning simply
drew attention to a characteristic that the Constitution generally commands the jury to ignore. McFarland v. Smith, 611 F.2d 414, 417 (2d Cir. 1979); see

36a
also McCleskey, 481 U.S. at 309 n.30, 107 S.Ct. 1756
(noting the numerous cases in which the United
States Supreme Court has sought to eradicate racial
prejudice from our criminal justice system). Thus, as
the majority concluded, the prosecutor’s injection of
race into the trial was improper in this case.
¶ 61 Still, I recognize that there are cases where
racial evidence or argument is relevant. As noted by
both parties, race may be relevant where the prosecution has to prove the identity of the perpetrator.
Race would likely also be relevant to prove motive
for a particular type of hate crime. Yet, in what cases
and to what extent evidence or argument related to
race is admissible as a general rule remains unclear.
III. Supreme Court Should Give Guidance
¶ 62 My primary concern is a fair trial for both
sides. Fairness to a defendant means that his or her
rights are protected. Most notably here, the rights to
due process and equal protection of the law are essential. Due process necessarily includes a fair and
impartial jury. Fairness to the prosecution and the
people of the State of Colorado, on the other hand,
requires that we not unduly burden the State by unnecessarily excluding relevant evidence.
¶ 63 Our rules of evidence and procedure are designed to keep the trial fair. They prevent poisoning
the jury with prejudicial, irrelevant, or unreliable
information. The rules also give both sides adequate
notice to prepare their cases effectively.
¶ 64 Still, evidence or argument related to race is
different. In a recent case, Justice Kennedy noted
that “[a]ll forms of improper bias pose challenges to
the trial process. But there is a sound basis to treat
racial bias with added precaution.” Pena-Rodriguez

37a
v. Colorado, 580 U.S. ––––, ––––, 137 S.Ct. 855, 869,
197 L.Ed.2d 107 (2017). I agree that added precaution is necessary to prevent racial prejudice from entering a trial.
¶ 65 Thus, the question is when can parties introduce racial evidence or argument without inviting
racial prejudice. I agree with the Court of Appeal of
Louisiana, Second Circuit, which stated that racial
evidence or argument is improper and calls for a
mistrial if it is “not material and relevant and might
create prejudice against the defendant in the mind of
the jury.” State v. Walker, 221 So.3d 951, 966 (La.
Ct. App. 2017); see also La. Code Crim. Proc. Ann.
art. 770 (2017). Based on my review of the record,
because the prosecutor’s questions regarding Robinson’s race had no relevance to a disputed issue at
trial and might create undue prejudice against him
in the mind of the jury, I agree with the majority
that the case should be reversed and remanded for a
new trial.
¶ 66 But, to provide the added precaution to
which Justice Kennedy alluded, I believe that addressing evidence or argument related to race pretrial would be more appropriate. Parties should give
notice of their intent to introduce evidence or argument related to race and should have to overcome a
presumption that such evidence is irrelevant. A pretrial screening process would provide parties with
clear guidelines of what is relevant and appropriate
and help ensure that evidence or argument related
to race is only used for a proper and limited purpose.
Plus, parties’ objections would be preserved, and the
trial court’s findings would be clearly recorded for
appellate review.

38a
¶ 67 True, a witness might unexpectedly introduce racial evidence or comments during direct or
cross-examination. Should this happen, I suggest the
parties be afforded an opportunity outside the jury’s
presence to have the trial court determine what, if
any, additional racial evidence might have a proper
and limited purpose.
¶ 68 Our supreme court has drawn clear lines for
other kinds of prejudicial evidence or argument. See,
e.g., CRE 404(b); People v. Spoto, 795 P.2d 1314,
1319 (Colo. 1990) (stating that prior bad acts are
presumptively inadmissible unless prosecutor articulates logical relevance independent of the forbidden
propensity inference); see also Wilson v. People, 743
P.2d 415, 420 (Colo. 1987) (a prosecutor calling the
defendant and defense witnesses liars is plain error).
It is my hope that, should the supreme court review
this case, it will draw an equally clear line for racial
evidence or argument in criminal cases.

